M E M O R A N D U M


                                                                     March 30,2007
To:          Diego Ruiz
             John White
             Andrew Donohue
From:         Walter Stachnik
Re:           Backlog of FOIA Requests For comment Zetters (Audit No. 422)


Attached is our audit report. Comments on prior versions of the draft report have
been incorporated a s appropriate.
We would appreciate receiving any additional comments you have concerning this
audit and the report. In particular, we would like to know whether you found the
audit useful. We also welcome any suggestions from you concerning how we could
improve future audits.
The courtesy and cooperation of you and your staff during this audit are appreciated.
Attachment
cc: Shelley Parratt
    James Daly
    Herbert Scholl
    Celia Winter
    Jayne Seidman
    Barry Miller
    Douglas Scheidt
    Frank Donaty
    Alison Fuller
    Richard Humes
    Noelle Frangipane
    Kenneth Johnson
    Darlene Pryor
    Peter Uhlmann
    John Heine
    Richard Hillman, GAO
 BACKLOG OF FOIA REQUESTS
   FOR COMMENT LETTERS

                               Executive Summary
The Divisions of Corporation Finance (CF) and Investment Management (IM) issue
comment letters and review filer responses (comment lettersl) related to their reviews
of public companies' disclosure filings. Over the last several years, commercial users
significantly increased their Freedom of Information Act (FOLA) requests for these
comment letters. The significant increase (approximately 150% between Fiscal Year
(FY) 2002 and FY2005) resulted i n a backlog of FOLA requests.
To their credit, the FOIA/Privacy Act (PA) Office, CF, and IM have taken steps to
eliminate this backlog. They assigned additional staff resources to processing FOLA
requests, updated their procedures for processing requests, and set general goals for
reducing their backlogs.
CF has developed a formal plan to reduce its backlog of FOLA requests, while IM has
almost eliminated its backlog. In January 2007, the FOLA/PA Office initiated a
special project to process backlogged FY 2003 and 2004 CF FOLA requests and has
eliminated almost all of them.
In May 2005, CF and IM began publicly releasing hosting) comment letters on the
Commission's web site for filing reviews completed after August 2004. The comment
letters issued between August 2004 and May 2005 created a separate backlog of
letters to be posted.
CF has now eliminated its backlog of comment letter postings. IM stopped posting
comment letters because of a lack of resources.
We are making several recommendations to further enhance the processing of FOLA
requests and the posting of comment letters.


           Objectives, Scope and Methodology
Our objectives were to determine the causes of the backlogs of FOIA requests and of
comment letter postings, and to identify ways to address these backlogs. During the


'1n addition to comment letters and filer responses, CF processes and publicly posts other correspondence
including acceleration requests (filers' requests for specific effectiveness dates for their registrations) and
letters fiom auditors and underwriters. We will refer to this correspondence collectively as "comment
letters."

Backlog Of FOIA Requests For Comment Letters (Audit No. 422)                                 March 30,2007
audit, we reviewed applicable written guidance, interviewed Commission staff, and
analyzed selected data from FYs 2002 to 2005 related to the two backlogs.
The FOWPA Office, CF and IM provided FOIA request backlog data. CF also
provided comment letter posting backlog data. We used these data for background
regarding the size and significance of these backlogs, but did not verify the data.
We selected our data samples on a judgment basis. Therefore, we cannot
statistically project our results to the universe of items from which we selected our
samples.
We conducted this performance audit from October 2005 to October 2006 in
accordance with Generally Accepted Government Auditing Standards (GAGAS). We
updated the report with more current backlog data after October 2006.
GAGAS requires that we plan and perform the audit to obtain sufficient,
appropriate evidence that provides a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

                                     Background
FOIA Request Processing
The public can request copies of federal agency documents by submitting Freedom of
Information Act (5 U.S.C. 552) requests. Agencies must respond to FOIA requests
within 20 working days. However, they are allowed more time to respond if they
notify requesters and give them a n opportunity to reduce the scope of their requests.
The FOIAIPA Office receives, processes, and responds to FOIA requests. It
categorizes requests as routine, complex, or expedited.
Routine FOIA requests typically involve a small number of documents and minimal
research. Complex requests involve searching for and reviewing significant
numbers of documents and addressing complicated FOIA issues (e.g., confidential
treatment issues). Expedited requests (which the Commission rarely receives)
involve urgent matters such as life-threatening situations and, if granted, are
processed a s soon a s practicable.
The FOIAIPA Office forwards FOIA requests to designated staff (FOIA liaisons) in
the Commission's offices and divisions for further processing as needed. CF's Office
of EDGAR2Information and Analysis (OEIA) and IM's Office of Chief Counsel (OCC)
process FOIA requests for their divisions. After receiving the FOIA liaisons'
responses, the FOINPA office prepares its response to the requester.
FOIA Request Increase
According to data provided by the FOIAIPA Office, the commission received
approximately 3,600 FOIA requests in FY 2002, 5,900 in FY 2003, 9,500 in FY 2004

2
 The Commission's EDGAR system (ElectronicData Gathering, Analysis, and Retrieval) receives, stores,
and disseminates filings and related documents.


Backlog Of FOIA Requests For Comment Letters (Audit No. 422)                       March 30,2007
and 9,000 in FY 2005 (an approximately 150% increase between FY 2002 and FY
2005).
FOIA Request Resources
The FOIAIPA Office, OEIA and OCC indicated that their staff resources for
processing FOIA requests were limited, especially considering the recent workload
increases. The FOIAIPA Office indicated that it had 21 staff members in FY 2002
and FY 2003, which increased to 26 staff members in FY 2004 and FY 2005.
OEIA had up to six staff members processing FOIA requests until the end of FY
2004. In FY 2005, OEM hired 15 additional staff. OCC had one staff member
processing FOIA requests until around the end of FY 2005, when two existing staff
members added FOIA matters to their other responsibilities.
FOIA Request Backlog
Approximately 9,800 FOIA requests were pending a s of the end of FY 2005. Of
these, approximately 6,000 were pending in OEIA, while approximately 1150 were
pending in OCC.
As of the end of FY 2006, approximately 5,400 of the 6,000 OEIA requests and
approximately 170 of the 1150 OCC requests that were pending a t the end of FY
2005 were still pending.3 OEIA's pending requests for FY 2006 were approximately
2,700 a s of the end of FY 2006. The FOIAIPA Office, OEIA and OCC are now
reconciling their FOIA backlog data.

Executive Order 13392
I n December 2005, the President issued Executive Order 13392, "Improving Agency
Disclosure of Information." This Executive Order included requirements that
agencies assess, plan and report on their FOIA operations and improvements.
The Commission submitted a n action plan on June 14, 2006 (revised on October 13,
2006) to the Department of Justice and the Office of Management and Budget, as
required by the Executive Order. The Commission's plan included the FOIA request
backlog a s a n area for which improvements were planned. Other areas for
improvement included proactive disclosures, training, and internal policies and
practices.
The Commission's staffs plan to publicly disseminate comment letters (see
immediately below) is consistent with Executive Order 13392. The Executive Order
requires agencies to plan ways to provide records to the public without the need for
FOIA requests.

Posting Comment Letters
In June 2004, the Commission's staff announced (in Press Release 2004-89) its
position on publicly releasing comment letters. The staff indicated that it wanted to
improve public access to these documents. The release indicated that comment


 IM indicated that by December 2006 its backlog of FOIA requests had declined further, to approximately
130.


Backlog Of FOIA Requests For Comment Letters (Audit No. 422)                         March 30,2007
letters would be publicly available on the Commission's website after the
Commission completed the necessary technical modifications.
In May 2005, the Commission's staff announced (in Press Release 2005-72) that it
would begin publicly releasing (posting) comment letters on its website for filings
made after August 2004.
EDGAR data indicated that between August 2004 and May 2005, CF's staff issued
comment letters on approximately 8,800 filings. For the same period, IM's staff
issued approximately 1,600 comment letters on investment company filings. These
previously issued comment letters became subject to posting in May 2005, creating a
separate backlog (in addition to the FOIA request backlog).
CF's Office of EDGAR Information and Analysis (OEIA) processes and posts CF's
comment letters. OEIA indicated that its backlog of comment letter postings has
now been eliminated.
IM's Office of Disclosure Review (ODR) is responsible for processing IM's comment
letters and posting them to the Commission's website. Because of insufficient
resources, ODR stopped posting comment letters in approximately January 2006.

                              Audit Results
We found that the FOIA backlog was primarily caused by a large increase in FOIA
requests which started in FY 2003. The requests were from commercial entities for
comment letters. Limited staff resources hampered the FOIAIPA Office's, OEIA's,
and OCC's efforts to eliminate their backlogs of FOIA requests.
To their credit, these offices have taken several steps to address the backlogs, and
have made substantial progress. They assigned additional staff resources to
processing FOIA requests, developed updated procedures, and set general goals for
reducing their backlogs.
OCC has almost eliminated its FOIA request backlog. The FOIA/PA Office and
OEIA have almost eliminated OEIA's FY 2003 and 2004 FOIA request backlogs.
Posting of comment letters on the Commission website has reduced the number of
FOIA requests for these letters, and will continue to do so.
A separate backlog of comment letters to be posted consisted of the comment letters
issued in the retroactive period covered by the posting initiative (August 2004
through May 2005). Initially, OEIA's efforts to post comment letters was hampered
by limited staff resources, but OEIA has now eliminated this backlog. ODR stopped
posting comment letters in approximately January 2006 because of lack of resources.
We are making several recommendations, as described below, to further enhance
processing of FOIA requests and posting of comment letters.
45-Day Delay
When authorizing posting of comment letters to the Commission public website, the
Commission's staff indicated that the letters would not be posted until at least 45
days after the filing review was completed. The 45 day period was designed to
prevent the inadvertent or premature release of information about securities
offerings.


Backlog Of FOIA Requests For Comment Letters (Audit No: 422)          March 30,2007
OEIA's procedures provide that the posting process for comment letters does not
begin until after the 45 day period. These procedures unnecessarily delay posting of
comment letters. The comment letters could be prepared for posting once the filing
review is completed, and the letters could be scheduled for posting as soon a s
possible after the 45 day period.
       Recommendation A
       CF should revise its comment letter posting procedures to provide that the
       posting process for comment letters begins once the filing review is
       completed.

       CFysResponse
       CF indicated that it now processes comment letters as soon a s possible after
       completion of filing reviews to allow posting of comment letters a s close to the
       end of the 45-day period a s possible.
Role of CF Filing Review Staff
CF's filing reviewers prepare comment letters but do not post them to the public
website although they do post the letters to the Commission's internal EDGAR
system. OEIA searches internal EDGAR for these letters, downloads them, and
processes them for public release.
We discussed with CF ways to include the filing review staff in the public posting
process to improve efficiency. CF indicated that the review staff could forward the
comment letters and other documents electronically to OEIA, together with a
recommendation on whether website posting was appropriate.
       Recommendation B
       CF should revise its procedures to have its review staff forward comment
       letters and their posting recommendations to OEIA.

       CFysResponse
       CF indicated that it has implemented this recommendation.
Electronic Filing of Filer Responses
The Commission's General Rules and Regulations For Electronic Filings, Regulation
S-T, requires electronic submission through EDGAR of filer responses to comment
letters, except for material covered by a confidential treatment request or material
the company wants returned. CF indicated that it did not always enforce the
electronic filing requirement because it did not want to delay filing reviews.
When processing comment letters for public posting, CF staff must manually search
for company responses filed in paper, which increases processing time.

       Recommendation C
       CF should ensure electronic filing of filer response letters under Regulation S-T.




Backlog Of FOIA Requests For Comment Letters (Audit No. 422)            March 30,2007
       CF's Response
       CF indicated that it receives a n immaterial number of filer response letters
       in paper compared to the total number of responses. CF scans and uploads
       the paper response letters it receives. CF indicated that it reminds filers to
       submit their responses electronically.
Deferred Processing of FOIA Requests
CF indicated that it plans to defer processing of commercial firms' FOIA requests for
comment letters. I t intends to focus instead on posting comment letters to the
Commission's public website, processing FOIA requests from other sources, and
processing confidential treatment applications.
FOIA requires agencies to process FOIA requests within 20 days. I t allows agencies
time to resolve their FOIA request backlogs. However, agencies must process their
backlogged requests fairly and expeditiously.
As a result of its processing of CF's FY 2003 and FY 2004 backlogged FOIA requests,
the FOIAIPA Office sent approximately 30 FY 2003 requests back to CF for
additional processing. Once these are processed, the FY 2003 FOIA request backlog
in CF would be eliminated. The FOIAIPA staff continues to work on the backlog of
FY 2004 requests and has resolved a significant number of them. CF indicated that
it will process its confidential treatment requests before it processes the backlog of
commercial firm FOIA requests. CF projects that it will be able to resume
processing of these FOIA requests in April of this year.

       Recommendation D
       CF should process the FOIA requests that it receives from the F O W A
       Office as promptly as possible, on a first-in-first-out basis.

       CF's Response
       CF indicates that the FOIA Office performs the initial document search for
       pending FOIA requests and seeks CF assistance as necessary. CF helped the
       FOIA Office close pending 2003 requests and will assist the FOIA Office on
       2004 requests in April 2007. CF indicates that it will continue to assist the
       FOIA Office in responding to pending 2005,2006 and 2007 requests when the
       FOIA Office's document search indicates that CF assistance is required.
Performance Measures
CF developed performance measures (goals and timetables) for reducing its backlogs
of FOIA requests and comment letter postings.
IM planned to reduce further its FOIA request backlog by the end of FY 2006.
However, IM did not set goals for reducing its backlog of comment letter postings.
IM indicated that its priority was its backlog of FOIA requests, and that it did not
have resources for comment letter postings. However, developing goals and
timetables for posting comment letters could benefit IM (e-g., by including these
goals and timetables in IM's requests for resources to post comment letters).




Backlog Of FOIA Requests For Comment Letters (Audit No. 422)            March 30,2007
       Recommendation E
      IM should develop goals and timetables for eliminating its backlog of
      comment letter postings.

       IM's Response
      IM indicated that it will hire additional staff in the next six months to
      resume posting comment letters.
Tracking Systems
The exact size of IM's remaining comment letter backlog was unclear, as IM does not
have a tracking system for comment letters. CF has begun to research
improvements for its tracking system, and may be able to assist IM in developing a
system.

       Recommendation F
      IM should develop a tracking system for posting comment letters. I t may
      wish to consult with CF on developing a tracking system.

       IM's Response
       IM indicated that it will hire additional staff in the next six months to
       resume posting comment letters.
FOIA Request Database
The FOINPA Office plans to provide the Commission's FOIA liaisons with access to
its FOIA request database, beginning with the Commission's smaller offices. This
plan has several advantages.
Access to the database would enhance coordination on FOIA requests. The
Commission will then be able to provide better information to the public on the
status of FOIA requests, consistent with Executive Order 13392. Also, duplication of
FOIA request tracking systems will be reduced.

       Recommendation G
       The FOIA/PA Office should implement its plan to provide FOIA liaisons with
       access to its FOIA request database.

       FOIAIPA Office Response
       The FOIA/PA Office indicated that it plans to provide FOLA liaisons with
       read-only access to the FOIA request database.
IM's Posting Resources
IM requested, but has not yet received, funding for a separate group within IM to
process the posting of comment letters on the Commission website. IM managers
indicated that without the additional staff, they did not have resources to devote to
posting of comment letters. IM stopped posting its comment letters in January of
2006, and focused instead on its FOIA request backlog.




Backlog Of FOIA Requests For Comment Letters (Audit No. 422)            March 30, 2007
In the absence of additional resources, IM could consider other options for posting
these letters (e.g., designating certain staff to post them as workload allows).

       Recommendation H
       IM should consider other options for posting comment letters and continue to
       seek additional resources for posting them.

       IM's Response
       IM indicated that it will hire additional staff in the next six months to
       resume posting comment letters.




Backlog Of FOIA Requests For Comment Letters (Audit No. 422)            March 30,2007
